             Report on Audit of Cost Accounting Standard 412,
              Composition and Measurement of Pension Cost,
              and Cost Accounting Standard 413, Adjustment
                      and Allocation of Pension Cost

                                   July 2004

                     Reference Number: 2004-1C-123




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
